Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICAL EQUIPMENT 

        SUPPLIERS: 

 COMPLIANCE WITH MEDICARE 

 ENROLLMENT REQUIREMENTS





                    Daniel R. Levinson

                     Inspector General 


                       March 2007

                     OEI-04-05-00380

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                   S U M M A R Y                     



                  OBJECTIVE
                  To determine if selected Medicare durable medical equipment,
                  prosthetics, orthotics, and supply (DMEPOS) suppliers physically
                  existed at their listed addresses and were open to conduct business.


                  BACKGROUND
                  According to the Centers for Medicare & Medicaid Services (CMS),
                  Medicare expenditures for DMEPOS were approximately $10 billion in
                  calendar year (CY) 2005. DMEPOS includes devices such as power
                  wheelchairs, oxygen equipment, diabetic equipment, canes, braces, and
                  artificial limbs.

                  DMEPOS suppliers provide equipment to Medicare beneficiaries and
                  submit claims to the Federal Government for reimbursement. At the
                  time of our review, DMEPOS suppliers were required to meet
                  21 Medicare standards in order to obtain a supplier number for these
                  billing privileges, pursuant to 42 CFR § 424.57(c). Suppliers must
                  obtain a different supplier number for each location at which they will
                  furnish equipment. The National Supplier Clearinghouse (NSC),
                  operated by Palmetto Government Benefit Administrators (GBA),
                  reviews DMEPOS suppliers through site visits at enrollment, and
                  3 years later for reenrollment, to determine if they meet the Medicare
                  standards. Generally, no site visits occur outside of the 3-year cycle.
                  However, NSC may conduct out-of-cycle site visits if it receives
                  notification that a supplier may be in violation of one or more Medicare
                  standards. Out-of-cycle site visits have detected suppliers not meeting
                  the standards. For example, in April and May of 2005, Palmetto GBA’s
                  Supplier Audit and Compliance Unit conducted out-of-cycle site visits of
                  40 DMEPOS suppliers in Miami, resulting in the revocation of
                  27 supplier numbers, 68 percent of the suppliers visited.

                  There are planned changes for DMEPOS supplier enrollment in the
                  Medicare program. Section 302(a)(1) of the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 requires the Medicare
                  program to develop and implement quality standards for DMEPOS
                  suppliers. In August 2006, CMS issued a final rule requiring DMEPOS
                  suppliers to go through an accreditation process. This process will
                  utilize approved quality standards that DMEPOS suppliers must meet
                  to participate in and bill the Medicare program. Until these changes
                  are fully implemented, NSC will continue with its enrollment

OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   i
E X E C U T I V E              S U     M M A R Y


                   responsibilities, which include conducting site visits and reenrolling
                   DMEPOS suppliers.

                   In a 2001 report, the Office of Inspector General (OIG) recommended
                   that CMS conduct random site visits of DMEPOS suppliers. In
                   response to our recommendations, CMS stated that it would increase
                   site visits to suppliers who did not pass inspection. However, CMS did
                   not directly address whether it would conduct random site visits of the
                   larger DMEPOS supplier population. In a September 2005 report, the
                   Government Accountability Office recommended that CMS establish an
                   annual minimum of out-of-cycle site visits of DMEPOS suppliers. CMS
                   has agreed to conduct these site visits as resources permit.

                   For our evaluation, we conducted out-of-cycle site visits of 169 DMEPOS
                   suppliers from October 24 to November 4, 2005, to determine if they met
                   the Medicare requirements of maintaining a physical facility and were
                   open to conduct business. We chose these requirements because they
                   directly impact the ease of beneficiary access to DMEPOS services. We
                   determined compliance with these Medicare requirements through
                   physical site observations and attempts to gain access to the facilities.


                   FINDINGS
                   Of 169 DMEPOS suppliers, 10 did not exist at their business
                   address, yet they billed Medicare almost $393,000 in the
                   2 months after we had determined that they were absent. Pursuant
                   to 42 CFR § 424.57(c)(7), DMEPOS suppliers that bill Medicare must
                   maintain a physical facility. At the time of our site visits, 10 suppliers
                   did not exist at the business address listed on their enrollment
                   application. We confirmed with NSC that we had conducted our site
                   visits at the correct business addresses. In one instance, there was a
                   law office at the DMEPOS business address. One of the attorneys
                   informed us that he had been there for about 1 year, and that he was
                   unaware of a DMEPOS supplier at that location. The 10 absent
                   suppliers should have been located in 6 of the 27 counties where we
                   conducted our site visits, and represented 13 percent (1 of 8) to 40
                   percent (2 of 5) of the total number of suppliers that we visited in each
                   of those counties. Because these suppliers were not randomly selected,
                   our results are not representative of the entire six counties where the
                   absent suppliers should have been located.

                   The 10 absent DMEPOS suppliers collectively billed Medicare $392,720
                   for services rendered from the day of our site visits through the end of

 OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   ii
E X E C U T I V E              S U     M M A R Y


                   CY 2005. Of the $392,720 in submitted claims, the suppliers had
                   received a total of $196,842 in reimbursements as of December 31, 2005.

                   From our site visits, we cannot determine whether the absent suppliers
                   were submitting claims that should not have been paid by Medicare, or
                   were submitting legitimate claims from another location. However,
                   suppliers are required to have a different billing number for each of
                   their locations, and the 10 suppliers were not at the locations associated
                   with the Medicare billing numbers used to receive reimbursement in the
                   2 months after our site visits.
                   Of 169 DMEPOS suppliers, 6 were closed during posted business
                   hours at the time of our site visits. Pursuant to
                   42 CFR § 424.57(c)(8), DMEPOS suppliers that bill Medicare must be
                   accessible to beneficiaries and to CMS. Six DMEPOS suppliers existed
                   at the business address on their enrollment application, but were closed
                   during their posted hours of operation at the time of our single site visit.
                   For example, the proprietor of a business adjacent to one DMEPOS
                   establishment informed us that the DMEPOS staff were absent for
                   months at a time. One of the six closed suppliers was in one of the same
                   counties where we could not locate the suppliers previously described.
                   The six closed suppliers collectively submitted $101,833 in Medicare
                   claims, and had been reimbursed $51,948 of this amount as of
                   December 31, 2005. These claims were for services rendered from the
                   day of our site visits through the end of CY 2005.


                   CONCLUSION
                   We conducted primarily observational, out-of-cycle site visits of
                   DMEPOS suppliers to determine if they were in compliance with
                   selected Medicare requirements. We found that as many as 40 percent
                   (2 of 5) of the establishments visited in one county did not physically
                   exist at their business address, yet they continued to receive Medicare
                   reimbursements. These results are not representative of the entire
                   county because the suppliers that we visited were not randomly
                   selected.

                   While this study did not uncover supplier noncompliance with Medicare
                   requirements in all areas visited, our findings suggest that out-of-cycle
                   site visits of targeted DMEPOS suppliers may be warranted in other
                   areas of the country. By helping to ensure the legitimacy of DMEPOS
                   suppliers, out-of-cycle site visits may help to prevent fraud, waste, and
                   abuse in the Medicare program. CMS may want to consider the

 OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   iii
E X E C U T I V E              S U     M M A R Y



                   findings of our study as they determine how and to what extent out-of­
                   cycle site visits of DMEPOS suppliers will occur.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with the basic findings of this report. CMS agreed that
                   out-of-cycle site visits can identify suppliers who are no longer in
                   business or do not meet basic supplier standards. CMS also noted that
                   there can be added value from using an abbreviated protocol. However,
                   CMS is concerned that using an abbreviated site visit protocol would not
                   be adequate to appropriately revoke supplier numbers and ensure
                   revocation decisions are upheld upon appeal. CMS also stated that it is
                   in the process of taking several aggressive actions, such as requiring
                   DMEPOS suppliers to go through an accreditation process.

                   OIG is encouraged that CMS is in the process of taking additional steps
                   to ensure that suppliers meet the required Medicare standards.
                   Regarding CMS’s concern that abbreviated site visits could hamper the
                   process to appropriately revoke supplier numbers, this study was
                   designed to determine if suppliers were meeting selected enrollment
                   standards. We continue to believe that the findings of this review
                   provide an accurate picture of how DMEPOS suppliers were doing
                   business on the days we visited them. CMS may want to consider our
                   findings as they determine how and to what extent out-of-cycle site
                   visits of DMEPOS suppliers will occur.




 OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   iv
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 5



                    Ten DMEPOS businesses were not physically present . . . . . . . . . . 5 


                    Six DMEPOS businesses were closed during posted hours. . . . . . . 6 



         CONCLUSION ............................................. 7

                    Agency Comments and Office of Inspector General Response . . . . 7 




         ENDNOTES ................................................ 9




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    A: Medicare Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

Δ   I N T R O D U C T I O N                          



                  OBJECTIVE
                  To determine if selected Medicare durable medical equipment,
                  prosthetics, orthotics, and supply (DMEPOS) suppliers physically
                  existed at their listed addresses and were open to conduct business.


                  BACKGROUND
                  Durable Medical Equipment, Prosthetics, and Orthotics Supplies
                  According to the Centers for Medicare & Medicaid Services (CMS),
                  Medicare expenditures for DMEPOS were approximately $10 billion in
                  calendar year (CY) 2005.1 DMEPOS includes devices such as power
                  wheelchairs, oxygen equipment, diabetic equipment, canes, braces, and
                  artificial limbs.2
                  DMEPOS Supplier Enrollment
                  DMEPOS suppliers provide equipment to Medicare beneficiaries and
                  submit claims to the Federal Government for reimbursement. To obtain
                  these billing privileges, suppliers must enroll in the Medicare program
                  and apply for a supplier number from CMS. At the time our review was
                  conducted, Medicare DMEPOS suppliers were required to meet
                  21 standards in order to obtain a supplier number, pursuant to
                  42 CFR § 424.57(c). (See Appendix A for the Medicare standards.)3
                  Suppliers must obtain a different number for each location where they
                  will furnish equipment.

                  To verify that Medicare DMEPOS applicants meet the required
                  standards, CMS contracts with the National Supplier Clearinghouse
                  (NSC), operated by Palmetto Government Benefit Administrators
                  (GBA), to review applications and to conduct site visits for supplier
                  enrollment.

                  Every 3 years, DMEPOS suppliers must reenroll with NSC to maintain
                  their Medicare billing privileges. During the reenrollment process, NSC
                  conducts and oversees site visits of DMEPOS suppliers to confirm their
                  continued compliance with the Medicare standards. Generally, no site
                  visits occur outside of the 3-year cycle. However, NSC may initiate
                  out-of-cycle site visits if it receives notification from sources such as
                  beneficiaries or Palmetto GBA’s Benefit Integrity Unit that a supplier
                  may be in violation of one or more Medicare standards. NSC may also
                  conduct out-of-cycle site visits when notified by Palmetto GBA’s
                  Supplier Audit and Compliance Unit (SACU) about unusual supplier
                  billing activity. Out-of-cycle site visits have detected suppliers not

OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   1
I N T R O D        U C T     I O N


                    meeting the Medicare standards. For example, in April and May 2005
                    Palmetto GBA's SACU conducted unannounced, out-of-cycle site visits
                    of 40 DMEPOS suppliers in Miami. These site visits resulted in the
                    revocation of 27 supplier numbers, 68 percent of the suppliers visited.4
                    CMS Activities Relating to Medicare DMEPOS Supplier Standards
                    There are planned changes for DMEPOS supplier enrollment in the
                    Medicare program. Section 302(a)(1) of the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 requires the Medicare
                    program to develop and implement quality standards for DMEPOS
                    suppliers.5 Pursuant to a final rule published by CMS, all suppliers are
                    required to meet quality standards included as part of the accreditation
                    process to participate in and bill the Medicare program.6 According to
                    the final rule, CMS will phase in the accreditation process of DMEPOS
                    suppliers.7 Until these changes are fully implemented, NSC will
                    continue with its enrollment responsibilities, which include conducting
                    site visits and reenrolling DME providers.
                    Related Work
                    The Office of Inspector General (OIG) has issued two reports on
                    DMEPOS supplier compliance with Medicare standards. First, a
                    1997 report included recommendations for CMS to conduct site visits at
                    the physical locations of DMEPOS supplier applicants.8 Subsequently,
                    site visits became part of the DMEPOS supplier enrollment process.
                    Second, a 2001 report recommended that CMS and NSC institute
                    random, unannounced site visits of DMEPOS businesses at times other
                    than initial enrollment and reenrollment.9 In response to our
                    recommendations, CMS stated that it would increase site visits to
                    suppliers who did not pass inspection. However, CMS did not directly
                    address whether it would conduct random, unannounced site visits of
                    the larger DMEPOS supplier population.

                    In a September 2005 study, the Government Accountability Office
                    (GAO) determined that CMS should improve the DMEPOS supplier
                    enrollment process and its oversight of NSC in verifying DMEPOS
                    supplier compliance with the Medicare standards.10 In addition, GAO
                    recommended that CMS establish an annual minimum of out-of-cycle
                    site visits of DMEPOS suppliers. CMS has agreed to conduct these site
                    visits as resources permit.




 OEI-04-05-00380    MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   2
I N T R O D        U C T     I O N 





                    METHODOLOGY
                    The Medicare standards set forth in 42 CFR § 424.57(c) often contain
                    multiple requirements within each standard. For our evaluation, we
                    selected two requirements from two Medicare standards.11 We
                    conducted out-of-cycle site visits of a purposive sample of DMEPOS
                    suppliers to determine if they met these two requirements. We first
                    determined if suppliers physically existed at the business address on
                    their enrollment application. We next determined if they were open to
                    conduct business. We conducted our site visits from October 24 to
                    November 4, 2005, using DMEPOS business addresses on file with
                    NSC. We confirmed that these addresses were current as of the date of
                    our site visits. We visited DMEPOS suppliers only once, unless we
                    arrived outside of their posted hours of operation. We did not return to
                    sites that were closed during posted business hours. We determined if
                    the DMEPOS suppliers were in compliance with the selected Medicare
                    requirements by observing the external appearance of, and attempts to
                    gain access to, the facilities.
                    Site Selection
                    To select DMEPOS suppliers for our site visits, we started from a list of
                    116,740 suppliers eligible to receive Medicare reimbursement on file
                    with NSC as of August 2006. From this list, we excluded suppliers
                    associated with large chains (25 stores or more, such as Rite-Aid or
                    CVS), self-reported physicians’ and dentists’ offices, hospitals,
                    pharmacies, nursing homes, and skilled nursing facilities. We further
                    excluded suppliers under OIG investigation at the time we conducted
                    our study. From the remaining suppliers, we chose sites that had
                    undergone an NSC site visit 16 to 20 months prior to August 15, 2005.
                    This timeframe was selected so that our site visits would be out of cycle
                    with the 3-year NSC schedule. This process left us with 7,747 suppliers.

                    Next, we used the data mining software Clementine® to further analyze
                    the 7,747 suppliers remaining from our initial exclusions. We chose
                    sites associated with supplier numbers used to bill Medicare at least
                    once in CY 2004, and performed cluster analysis on the suppliers based
                    upon CY 2004 county-level supplier billing and enrollment data. In
                    addition, we also used CY 2004 supplier-level billing and enrollment
                    data. The suppliers were selected based on high billing amounts and, in
                    some cases, unusual billing patterns (e.g., billing in only one quarter).
                    Clementine® also identified suppliers with an unusually rapid increase
                    in the number of beneficiaries served. This process identified


 OEI-04-05-00380    MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   3
I N T R O D        U C T     I O N


                    2,312 suppliers in 80 counties. Based on CMS data, all of the suppliers
                    in these areas had claims activity in the month of September 2005. We
                    checked our selected suppliers against OIG’s exclusion list to confirm
                    that none had been excluded from the Medicare program.

                    From the listing of 2,312 suppliers, we chose some of the leading
                    suppliers based on high billing amounts and unusual billing patterns.
                    We were unable to select suppliers at the top of this list because they
                    were located in Florida and the area was recovering from a hurricane at
                    the time we conducted this study. Our final selection consisted of
                    169 DMEPOS suppliers in 27 counties in 10 States. Because these
                    169 suppliers were not randomly selected, the results of our site visits
                    are not representative of all DMEPOS suppliers, or of the 27 counties
                    that we visited.
                    DMEPOS Claims Data
                    To determine the extent to which DMEPOS suppliers that did not meet
                    the Medicare requirements billed for services rendered on or after our
                    site visits, we requested CY 2005 claims data from the Statistical
                    Analysis Durable Medical Equipment Regional Carrier. For each
                    supplier, we grouped the services rendered from the day of our site visit
                    through December 31, 2005. We then calculated the total amount of the
                    submitted charges, and the total amount of the corresponding Medicare
                    reimbursements for these services as of December 31, 2005.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-04-05-00380    MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   4
Δ      F I N D I N G S 



   Of 169 DMEPOS suppliers, 10 did not exist at             Pursuant to 42 CFR § 424.57(c)(7),
their business address, yet they billed Medicare            DMEPOS suppliers that bill
   almost $393,000 in the 2 months after we had             Medicare must maintain a physical
                                                            facility. At the time of our site
              determined that they were absent
                                                            visits, 10 suppliers did not exist at
                      the business address listed on their enrollment application. In one
                      instance, there was a law office at the DMEPOS business address. One
                      of the attorneys informed us that he had been there for about 1 year,
                      and that he was never aware of a DMEPOS business at that location.
                      The 10 absent suppliers should have been located in 6 of the 27 counties
                      where we conducted our site visits. In one county, for example, we could
                      not locate one of eight (13 percent) DMEPOS suppliers. In another
                      county that we visited, two of five (40 percent) DMEPOS suppliers did
                      not exist at their listed business address. We confirmed with NSC that
                      we had conducted our site visits at the correct business addresses, and
                      that none of the 10 absent suppliers had informed NSC that they had
                      moved to a different location in the months preceding our visits.
                      Because these suppliers were not randomly selected, our results are not
                      representative of the entire six counties where the absent suppliers
                      should have been located.

                      Collectively, all 10 absent DMEPOS suppliers billed Medicare $392,720
                      for services rendered from the day of our site visits (October 24 –
                      November 4) through the end of CY 2005. Of the $392,720 in submitted
                      claims, the businesses had received a total of $196,842 in
                      reimbursements as of December 31, 2005.

                      From our site visits, we cannot determine whether the absent suppliers
                      were submitting claims that should not have been paid by Medicare, or
                      were submitting legitimate claims from another location. However, as
                      required in 42 CFR § 424.57(b)(2), DMEPOS suppliers must have a
                      billing number for each location where they furnish supplies. Our site
                      visits demonstrated that 10 suppliers were not at the locations
                      associated with the Medicare billing numbers used to receive
                      reimbursement in the 2 months after our site visits.




    OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   5
F   I N D I N G        S      



  Of 169 DMEPOS suppliers, 6 were closed during                     Pursuant to 42 CFR
posted business hours at the time of our site visits                § 424.57(c)(8), DMEPOS
                                                                    suppliers that bill Medicare
                                                                    must be accessible to
                                                                    beneficiaries and to CMS.
                      Six DMEPOS suppliers existed at the business address on their
                      enrollment application, but were closed during their posted hours of
                      operation at the time of our single site visit. One of these businesses
                      was in the same location as another business; the front of the room was
                      dedicated to cell phone sales, while the DMEPOS supplier was located
                      in the back of the room. The DMEPOS supplier was not staffed when
                      we were onsite, and the cell phone vendor stated that the supplier
                      “comes and goes.” In another example, the proprietor of a business
                      adjacent to the DMEPOS establishment informed us that the DMEPOS
                      staff were absent for months at a time. None of the six businesses were
                      closed due to relocation, as confirmed by NSC. One of the six closed
                      suppliers was in one of the same counties where we could not locate the
                      suppliers previously described.

                      The six suppliers that were closed during their posted hours of
                      operation collectively submitted $101,833 in Medicare claims, and had
                      been reimbursed $51,948 of this amount as of December 31, 2005.
                      These claims were for services rendered from the day of our site visits
                      (October 24 – November 4) through the end of CY 2005.




    OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   6
Δ   C O N C L U S I O N                       


                  Through out-of-cycle site visits, we found that 10 of 169 DMEPOS
                  suppliers did not physically exist at their current business address on
                  file with NSC. These suppliers collectively received almost $197,000 in
                  Medicare reimbursements in the 2 months after we had determined
                  that they were absent. We also found that 6 of 169 DMEPOS suppliers
                  physically existed at their business address, but were closed during
                  their posted hours of operation at the time of our single site visit.

                  We conducted our DMEPOS supplier visits primarily through site
                  observation, and found as many as 40 percent (2 of 5) of the
                  establishments visited in one county did not physically exist at the
                  business address on their supplier enrollment application. These
                  results are not representative of the entire county because the suppliers
                  we visited were not randomly selected. While this study did not uncover
                  supplier noncompliance with Medicare requirements in all areas visited,
                  our findings suggest that out-of-cycle site visits of targeted DMEPOS
                  suppliers may be warranted in other areas of the country. By helping to
                  ensure the legitimacy of DMEPOS suppliers, out-of-cycle site visits may
                  help to prevent fraud, waste, and abuse in the Medicare program.

                  In August 2006, CMS issued a final rule requiring DMEPOS suppliers
                  to go through an accreditation process. This process will utilize
                  approved quality standards that DMEPOS suppliers must meet to
                  participate in and bill the Medicare program. Until these changes are
                  fully implemented, NSC will continue its enrollment responsibilities,
                  which include conducting site visits. In the interim period before full
                  implementation of the quality standards and accreditation, CMS may
                  want to consider the findings of our study as they determine how and to
                  what extent out-of-cycle site visits of DMEPOS suppliers will occur.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with the basic findings of this report. CMS agreed that
                  out-of-cycle site visits can identify suppliers who are no longer in
                  business or do not meet basic supplier standards. CMS also noted that
                  there can be added value from using abbreviated protocols. However,
                  CMS is concerned that using an abbreviated site visit protocol would not
                  be adequate to appropriately revoke supplier numbers and ensure
                  revocation decisions are upheld upon appeal.

                  CMS also stated that it is in the process of taking several aggressive
                  actions, such as requiring DMEPOS suppliers to go through an

OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   7
C O    N C L      U S I O      N



                   accreditation process. CMS believes this process is another way for
                   Medicare to ensure quality health care for beneficiaries while deterring
                   potential fraud, waste, and abuse. In addition, CMS is drafting a
                   proposed regulation addressing the posting of surety bonds by suppliers;
                   enhancing the number of unannounced NSC site visits of suppliers; and
                   developing a proposal to revise deactivation requirements for inactive
                   Medicare billing numbers. See Appendix B for the full text of CMS’s
                   comments.

                   OIG is encouraged that CMS is in the process of taking additional steps
                   to ensure that suppliers meet the required Medicare standards.
                   Regarding CMS’s concern that abbreviated site visits could hamper the
                   process to appropriately revoke supplier numbers, this study was
                   designed to determine if suppliers were meeting selected enrollment
                   standards. We continue to believe that the findings of this review
                   provide an accurate picture of how DMEPOS suppliers were doing
                   business on the days we visited them. CMS may want to consider our
                   findings as they determine how and to what extent out-of-cycle site
                   visits of DMEPOS suppliers will occur.




OEI-04-05-00380    MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   8
Δ    E N D N O T E S




                  1CMS estimate based on the Part B Extract and Statistical System,
                  provided February 3, 2006.

                  2   Sections 1861(n) and (s) of the Social Security Act.

                  3CMS published a final rule on August 18, 2006, at 71 Federal
                  Register 48354, entitled "Medicare Program; Inpatient Rehabilitation
                  Facility Prospective Payment System for Federal Fiscal Year 2007;
                  Certain Provisions Concerning Competitive Acquisition for Durable
                  Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS);
                  Accreditation of DMEPOS Suppliers." In part, this final rule amends
                  the durable medical equipment certification standards regulation at
                  42 CFR § 424.57(c) by adding four additional standards. See
                  Appendix A for the standards in place at the time of evaluation, as
                  well as the text of the new standards.

                  4   Intelligence Report: Issue 2, Palmetto GBA SACU, July 18, 2005.

                  5Public Law 108-173, adding section 1834(a)(20) of the Social
                  Security Act.

                  6See 42 CFR § 424.57(c)(24) (as added by the Medicare program final
                  rule at 71 Federal Register 48354 (August 18, 2006)). CMS has
                  posted quality standards for suppliers of DMEPOS on its Web site at
                  http://www.cms.hhs.gov/CompetitiveAcqforDMEPOS/downloads/CMS_
                  DMEPOS_Quality_ Standards_081406.pdf.

                  7See the preamble to the Medicare program final rule at 71 Federal
                  Register at 48392.

                  8“Medical Equipment Suppliers: Assuring Legitimacy” (OEI-04-96­
                  00240), December 1997. Available online at
                  http://oig.hhs.gov/oei/reports/oei-04-96-00240.pdf. Accessed March 3,
                  2006.




OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   9
                  9“Medical Equipment Suppliers: Compliance with Medicare
                  Standards” (OEI-04-99-00670), August 2001. Available online at
                  http://oig.hhs.gov/oei/reports/oei-04-99-00670.pdf. Accessed March 3,
                  2006.

                  10“More Effective Screening and Stronger Enrollment Standards
                  Needed for Medical Equipment Suppliers” (GAO-05-656),
                  September 22, 2005. Available online at
                  http://www.gao.gov/new.items/d05656.pdf. Accessed March 3, 2006.

                  11We examined two requirements selected from two Medicare
                  standards. Medicare standard seven requires DMEPOS businesses to
                  maintain a physical facility [42 CFR § 424.57(c)(7)]. Medicare
                  standard eight requires DMEPOS businesses to be accessible to
                  beneficiaries and CMS [42 CFR § 424.57(c)(8)].




OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   10
Δ   A P P E N D I X            A :           M E D I C A R E                      S T A N D A R D S           



                         This appendix contains both the standards in place at the time of our
                         review as well as standards recently added by CMS.

                         The following 21 Medicare standards, as outlined in 42 CFR 424.57(c), were
                         in effect at the time of our review. Our study focused on two requirements
                         selected from standards seven and eight. The supplier:


                         (1) operates its business and furnishes Medicare-covered items in
                         compliance with all applicable Federal and State licensure and
                         regulatory requirements;

                         (2) has not made, or caused to be made, any false statement or
                         misrepresentation of a material fact on its application for billing
                         privileges. (The supplier must provide complete and accurate
                         information in response to questions on its application for billing
                         privileges. The supplier must report to CMS any changes in
                         information supplied on the application within 30 days of the change.);

                         (3) must have the application for billing privileges signed by an
                         individual whose signature binds a supplier;

                         (4) fills orders, fabricates, or fits items from its own inventory or by
                         contracting with other companies for the purchase of items necessary to
                         fill the order. If it does, it must provide, upon request, copies of
                         contracts or other documentation showing compliance with this
                         standard. A supplier may not contract with any entity that is currently
                         excluded from the Medicare program, any State health care programs,
                         or from any other Federal Government Executive Branch procurement
                         or nonprocurement program or activity;

                         (5) advises beneficiaries that they may either rent or purchase
                         inexpensive or routinely purchased durable medical equipment, and of
                         the purchase option for capped rental durable medical equipment, as
                         defined in section 414.220(a) of this subchapter. (The supplier must
                         provide, upon request, documentation that it has provided beneficiaries
                         with this information, in the form of copies of letters, logs, or signed
                         notices.);

                         (6) honors all warranties expressed and implied under applicable State
                         law. A supplier must not charge the beneficiary or the Medicare
                         program for the repair or replacement of Medicare covered items or for
                         services covered under warranty. This standard applies to all


       OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   11
 A   P   P E N D     I X       A      





                  purchased and rented items, including capped rental items, as described
                  in section 414.229 of this subchapter. The supplier must provide, upon
                  request, documentation that it has provided beneficiaries with
                  information about Medicare covered items covered under warranty, in
                  the form of copies of letters, logs, or signed notices;

                  (7) maintains a physical facility on an appropriate site. The physical
                  facility must contain space for storing business records including the
                  supplier's delivery, maintenance, and beneficiary communication
                  records. For purposes of this standard, a post office box or commercial
                  mailbox is not considered a physical facility. In the case of a multi-site
                  supplier, records may be maintained at a centralized location;

                  (8) permits CMS, or its agents to conduct onsite inspections to ascertain
                  supplier compliance with the requirements of this section. The supplier
                  location must be accessible during reasonable business hours to
                  beneficiaries and to CMS, and must maintain a visible sign and posted
                  hours of operation;

                  (9) maintains a primary business telephone listed under the name of
                  the business locally or toll-free for beneficiaries. The supplier must
                  furnish information to beneficiaries at the time of delivery of items on
                  how the beneficiary can contact the supplier by telephone. The
                  exclusive use of a beeper number, answering service, pager, facsimile
                  machine, car phone, or an answering machine may not be used as the
                  primary business telephone for purposes of this regulation;

                  (10) has a comprehensive liability insurance policy in the amount of at
                  least $300,000 that covers both the supplier's place of business and all
                  customers and employees of the supplier. In the case of a supplier that
                  manufactures its own items, this insurance must also cover product
                  liability and completed operations. Failure to maintain required
                  insurance at all times will result in revocation of the supplier's billing
                  privileges retroactive to the date the insurance lapsed;

                  (11) must agree not to contact a beneficiary by telephone when
                  supplying a Medicare-covered item unless one of the following applies:

                        (i) The individual has given written permission to the supplier to
                        contact them by telephone concerning the furnishing of a
                        Medicare-covered item that is to be rented or purchased.

                        (ii) The supplier has furnished a Medicare-covered item to the
                        individual and the supplier is contacting the individual to
                        coordinate the delivery of the item.

OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   12
  A    P   P E N D    I X       A       





                        (iii) If the contact concerns the furnishing of a Medicare-covered
                        item other than a covered item already furnished to the individual,
                        the supplier has furnished at least one covered item to the
                        individual during the 15-month period preceding the date on
                        which the supplier makes such contact.

                  (12) must be responsible for the delivery of Medicare-covered items to
                  beneficiaries and maintain proof of delivery. (The supplier must
                  document that it or another qualified party has at an appropriate time
                  provided beneficiaries with necessary information and instructions on
                  how to use Medicare-covered items safely and effectively);
                  (13) must answer questions and respond to complaints a beneficiary
                  has about the Medicare-covered item that was sold or rented. A
                  supplier must refer beneficiaries with Medicare questions to the
                  appropriate carrier. A supplier must maintain documentation of
                  contacts with beneficiaries regarding complaints or questions;

                  (14) must maintain and replace at no charge or repair directly, or
                  through a service contract with another company, Medicare-covered
                  items it has rented to beneficiaries. The item must function as required
                  and intended after being repaired or replaced;

                  (15) must accept returns from beneficiaries of substandard (less than
                  full quality for the particular item or unsuitable items, inappropriate for
                  the beneficiary at the time it was fitted and rented or sold);

                  (16) must disclose these supplier standards to each beneficiary to whom
                  it supplies a Medicare-covered item;

                  (17) must comply with the disclosure provisions in section 420.206 of
                  this subchapter;
                  (18) must not convey or reassign a supplier number;

                  (19) must have a complaint resolution protocol to address beneficiary
                  complaints that relate to supplier standards in paragraph (c) of this
                  section and keep written complaints, related correspondence and any
                  notes of actions taken in response to written and oral complaints.
                  Failure to maintain such information may be considered evidence that
                  supplier standards have not been met. (This information must be kept
                  at its physical facility and made available to CMS, upon request.);

                  (20) must maintain the following information on all written and oral
                  beneficiary complaints, including telephone complaints, it receives:



OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   13
  A    P   P E N D    I X       A       





                        (i) the name, address, telephone number, and health insurance
                        claim number of the beneficiary,

                        (ii) a summary of the complaint, the date it was received, the
                        name of the person receiving the complaint, and a summary of
                        actions taken to resolve the complaint, and

                        (iii) if an investigation was not conducted, the name of the person
                        making the decision and the reason for the decision.

                  (21) provides to CMS, upon request, any information required by the
                  Medicare statute and implementing regulations.



                  The additional standards recently added by CMS, see endnote 3, are:

                  (22) All suppliers of DMEPOS and other items and services must be
                  accredited by a CMS-approved accreditation organization in order to
                  receive and retain a supplier billing number. The accreditation must
                  indicate the specific products and services, for which the supplier is
                  accredited in order for the supplier to receive payment for those specific
                  products and services.

                  (23) All DMEPOS suppliers must notify their accreditation
                  organization when a new DMEPOS location is opened. The
                  accreditation organization may accredit the new supplier location for
                  three months after it is operational without requiring a new site visit.

                  (24) All DMEPOS supplier locations, whether owned or subcontracted,
                  must meet the DMEPOS quality standards and be separately accredited
                  in order to bill Medicare. An accredited supplier may be denied
                  enrollment or their enrollment may be revoked, if CMS determines that
                  they are not in compliance with the DMEPOS quality standards.

                  (25) All DMEPOS suppliers must disclose upon enrollment all products
                  and services, including the addition of new product lines for which they
                  are seeking accreditation. If a new product line is added after
                  enrollment, the DMEPOS supplier will be responsible for notifying the
                  accrediting body of the new product so that the DMEPOS supplier can
                  be re-surveyed and accredited for these new products.




OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   14
Δ   A P P E N D I X            B :           A G E N C Y                  C O M M E N T S                   





       OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   15 

A   P   P E N D           I X       B      





        OEI-04-05-00380         MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   16 

Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Ann O’Connor, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta
                  regional office. Other principal Office of Evaluation and Inspections
                  staff who contributed include:
                  Stacey Bloomer, Co-Team Leader
                  Mina Zadeh, Co-Team Leader
                  Mary-Elizabeth Harmon, Co-Lead Analyst
                  Sharon Koehler, Co-Lead Analyst
                  Mark Biagioni
                  Michelle Canady
                  Peggy Daniel
                  Tricia Davis
                  Kevin Farber
                  David Graf
                  Trevor Johnson
                  Scott Manley
                  Gerius Patterson
                  Rob Rutland- Brown
                  Barbara Tedesco


                  Additional analysts conducting site visits:
                  Rosemary Borck
                  Emmanuel Diacosavvas
                  Paul Gottlober
                  Camille Harper
                  Deborah Harvey
                  Michael Henry
                  Scott Hutchison
                  Jennifer Jones
                  Nancy Molyneaux
                  Linda Moscoe
                  Emily Multari
                  Kenneth Price
                  Mark Stiglitz
                  Clark Thomas
                  Steven Zerebecki

OEI-04-05-00380   MEDICAL EQUIPMENT SUPPLIERS: COMPLIANCE WITH MEDICARE ENROLLMENT REQUIREMENTS   17
